$

No.

, f

IN THE
SUPREME COURT OF THE UNITED STATES

LIONEL ROBINSON - PETITIONER
vs.
SECRETARY, FLORIDA DEPARTMENT OF CORRECTIONS; and
ATTORNEY GENERAL, STATE OF FLORIDA - RESPONDENTS

PROOF OF SERVICE
I, Lionel Robinson, do swear or declare that on this date, January15, 2021, as required by
Supreme Court Rule 29 I have served the enclosed MOTION FOR LEAVE TO PROCEED IN
FORMA PAUPERIS and PETITION FOR WRIT OF CERTIORARI on each party to the above
proceeding or that party’s counsel, and every other person required to be served, by placing the
documents in the hands of a prison official for mailing out first class postage prepaid to :

Office of the Attorney General
Attn: Ashley B. Moody
PL-01, The Capitol
Tallahassee, FL 32399-1050

Mark S. Inch, Secretary
Florida Department of Corrections
501 S. Calhoun Street
Tallahassee, FL 32399-2500

I declare under the penalty of perjury that the foregoing is true and correct.

/-/5" 2/
Date

Is/
Lionel Robinson, D/C #G15804
Marion Correctional Institution
P.O. Box 158
Lowell, FL 32663-0158

